   U.S. DEPARTMENT OF COMMERCE
             Office of Inspector General



                    PUBLIC
                   RELEASE


  NATIONAL TELECOMMUNICATIONS
AND INFORMATION ADMINISTRATION

Telecommunications and Information Infrastructure
      Assistance Program Award Process Promotes
                           Merit-Based Decisions,
                But Process Needs More Discipline
                                CFDA No. 11.552


              Audit Report No. ATL-10946-9-0001 / March 1999




                       Office of Audits, Atlanta Regional Office
U.S. Department of Commerce                                                                    Audit Report ATL-10946-9-0001
Office of Inspector General                                                                                      March 1999


                                               TABLE OF CONTENTS

                                                                                                                               Page

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              i

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

PURPOSE AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

FINDING AND RECOMMENDATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

         I.        TIIAP Used Merit-Based Evaluation Criteria . . . . . . . . . . . . . . . . . . . . . . . . . . 6

         II.       TIIAP Solicitation Process Obtained a Nationwide Response . . . . . . . . . . . . . . 6

         III.      TIIAP Provided a Competitive, Merit-Based Review
                   of Applications . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

         IV.       TIIAP Selection Decisions that Deviated from Program Director’s
                   Recommendations Were Not Adequately Documented . . . . . . . . . . . . . . . . . . . 12

         V.        NTIA Response
                              . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

         VI.       OIG Comments
                             . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

         VII.      Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

APPENDIX I - NTIA Fiscal Year 1997 Procedures for Solicitation, Review, and Selection of
             Awards

APPENDIX II - NTIA’s Response to Draft Report
U.S. Department of Commerce                                              Audit Report ATL-10946-9-0001
Office of Inspector General                                                                March 1999


                                   EXECUTIVE SUMMARY

The Office of Inspector General has conducted an audit of the fiscal year 1997 procedures and
practices for soliciting, reviewing, and selecting applications for financial assistance under the
National Telecommunications and Information Administration’s Telecommunications and
Information Infrastructure Assistance Program (TIIAP), classified as No. 11.552 in the Catalog
of Federal Domestic Assistance. The audit was conducted as part of a Department-wide review
of Commerce’s discretionary financial assistance programs initiated at the request of the
Chairman of the Senate Commerce, Science, and Transportation Committee.

Discretionary financial assistance programs are those programs for which federal agencies have
the authority to independently determine the recipients and funding levels of awards. These
programs involve a significant portion of the Commerce Department’s budget and operations,
approximately $1 billion annually.

Through TIIAP, the National Telecommunications and Information Administration (NTIA)
provides financial assistance to nonprofit organizations, colleges and universities, and state, local
and Indian tribal governments to promote the widespread use of telecommunications and
information technologies in the public and nonprofit sectors. By providing targeted, matching
grants, the program helps develop nationwide, interactive, multimedia information infrastructures
that are accessible to all citizens in both rural areas and urban areas. The grants are used to fund
projects that improve the quality of, and the public’s access to, education, health care, public
safety, and other community-based services. In fiscal year 1997, the program received more than
920 applications for over $350 million; 876 for $337.5 million were accepted for review; and 55
grants totaling almost $20.9 million were awarded. All 55 awards were made competitively in
response to a solicitation.

We examined NTIA’s criteria, procedures and practices for soliciting, reviewing, and selecting
TIIAP awards and found that they generally complied with statutory, departmental and NTIA
requirements and appeared designed to result in merit-based awards. Specifically, our audit
disclosed that NTIA:

l      Developed and published merit-based technical and public policy criteria which were
       consistent with the objectives of the program to evaluate applications for financial
       assistance (see page 6).

l      Complied with the Department’s and NTIA’s requirement that a notice be placed in the
       Federal Register, at least annually, announcing the availability of funds and soliciting
       award applications, and specifying the criteria and the process to be used in reviewing
       and selecting applications for funding. The solicitations were sufficient to obtain a
       nationwide response from eligible applicants (see page 6).



                                                  i
U.S. Department of Commerce                                           Audit Report ATL-10946-9-0001
Office of Inspector General                                                             March 1999


l      Complied with the Department’s and NTIA’s requirements that (1) all financial assistance
       awards be made on the basis of a competitive review process, unless a special waiver is
       obtained, and (2) the competitive review process meet minimum standards established by
       the Department (see page 7).

l      Followed established Department and NTIA requirements for selecting applications for
       funding under TIIAP. However during fiscal year 1997, the Assistant Secretary for
       Communications and Information, as the selection official, added nine and deleted seven
       applications from TIIAP program director’s list of applications recommended for funding.
       The Assistant Secretary provided written justifications for each of the nine added
       applications, but there were no written justifications for any of the seven deleted
       applications. NTIA officials need to enhance the written justifications for award decisions
       that deviate from recommendations made by the TIIAP program director (see page 12).

NTIA concurred with our finding and recommendation. NTIA stated that it has already
implemented the recommendation, starting with the fiscal year 1998 grant competition. NTIA
also requested editorial changes based on the 1998 process improvements it implemented. We
have summarized NTIA’s response on page 13. We have included a copy of the response,
excluding attachments, as Appendix II.

We commend NTIA for implementation of the draft report’s recommendation. We did not
modify the final report based on the fiscal year 1998 changes by the agency because this report
covers the fiscal year 1997 events.

We made other editorial changes we considered appropriate.

We recommend that the Assistant Secretary for Communications and Information ensure that the
bases for making awards that deviate from the program director’s recommendations are
adequately documented.

Our recommendation appears on page 13.




                                                ii
U.S. Department of Commerce                                            Audit Report ATL-10946-9-0001
Office of Inspector General                                                              March 1999


                                       INTRODUCTION

The National Telecommunications and Information Administration (NTIA) administers the
Telecommunications and Information Infrastructure Assistance Program (TIIAP), described in the
Catalog of Federal Domestic Assistance as No. 11.552. The Appropriations Act of 1997
provided funds for the development of a national information infrastructure. This discretionary
funding program provides financial assistance to nonprofit organizations, colleges and
universities, and state, local and Indian tribal governments to promote the widespread use of
telecommunications and information technologies in the public and nonprofit sectors. By
providing targeted matching grants, the program helps develop nationwide, interactive,
multimedia information infrastructures that are accessible to all citizens in rural and urban areas.
The grants are used to fund projects that improve the quality of, and the public’s access to,
education, health care, public safety, and other community-based services.

TIIAP’s grants are used to (1) purchase equipment for connection to networks, including
computers, video conferencing systems, network routers, and telephones; (2) to buy software for
organizing and processing all kinds of information, including computer graphics and databases;
(3) to train staff, users, and others in the use of equipment and software; (4) to purchase
communications services, such as Internet access; and (5) to evaluate the projects.

The Appropriations Act of 1997 provided funds to be used for the planning and construction of
telecommunications networks for educational, cultural, health care, public information, public
safety, or other social services. NTIA established rules governing the TIIAP matching grant
program. The rules governing the fiscal year 1997 awards were published in the Federal
Register, Part II, Volume 62, Number 17, dated January 27, 1997. In fiscal year 1997, NTIA
officials received more than 920 applications for over $350 million, of which 876 were accepted
for review, and 55 grants totaling almost $20.9 million were awarded.

Competition is generally recognized as the most effective method of ensuring that financial
assistance awards are made on the basis of merit. One of the primary purposes of the Federal
Grant and Cooperative Agreement Act (31 U.S.C. §6301) is to encourage competition in the
award of federal financial assistance to the maximum extent practicable.

The Office of Management and Budget (OMB) has issued guidelines on administering
competition-based financial assistance programs for use by federal agencies. An interagency
study group, convened in 1979 by OMB to examine competition in financial assistance programs,
determined that financial assistance award processes, to ensure effective competition, should
include three basic elements. These elements, which were discussed in OMB’s June 1980 report,
Managing Federal Assistance in the 1980's, and are still applicable, include:

l      Widespread solicitation of eligible applicants and disclosure of essential application and
       program information in written solicitations;

l      Independent application reviews that consistently apply written program evaluation
       criteria; and
U.S. Department of Commerce                                              Audit Report ATL-10946-9-0001
Office of Inspector General                                                                March 1999


l      Written justifications for award decisions that deviate from recommendations made by
       application reviewers.

Also, OMB has issued the following circulars which set forth the policies and procedures to be
followed in administering federal financial assistance programs:

l      OMB Circular A-89, Federal Domestic Program Information, implements the mandate of
       the Federal Program Information Act, requiring agencies to systematically and periodically
       collect and distribute current information to the public on all federal domestic assistance
       programs, which is accomplished through the semiannual publication of the Catalog of
       Federal Domestic Assistance.

l      OMB Circular A-102, Grants and Cooperative Agreements with State and Local
       Governments, requires agencies to provide the public with advance notice in the Federal
       Register, or by other appropriate means, of their intended funding priorities for
       discretionary assistance programs unless such priorities are established by federal statute.
       Under A-102, when time permits, an agency must provide the public with an opportunity
       to comment on funding priorities. Finally, A-102 requires all grant awards over $25,000
       to be reviewed for consistency with agency priorities by a policy level official.

l      OMB Circular A-110, Uniform Administrative Requirements for Grants and Agreements
       with Institutions of Higher Education, Hospitals, and Other non-Profit Organizations,
       requires agencies to provide the public with advance notice of their intended funding
       priorities for discretionary assistance programs unless such priorities are established by
       federal statute.

l      OMB Circular A-123, Management Accountability and Control, implements the Federal
       Managers Financial Integrity Act (P.L. 97-255) requiring agencies to establish written
       procedures for all programs and administrative activities, including financial assistance
       programs, that provide reasonable assurance that activities are effectively and efficiently
       managed to achieve agency goals.

Commerce has relied upon these guidelines and circulars in developing and issuing policies and
procedures for its discretionary funding programs. Department Administrative Order (DAO) 203-
26, Department of Commerce Grants Administration, requires that (1) all Commerce financial
assistance awards be made on the basis of competitive reviews unless a special waiver is obtained,
(2) competitive review processes meet minimum standards outlined in the DAO, and (3) all
Commerce agencies publish, at least annually, a notice in the Federal Register announcing the
availability of funding, soliciting award applications, and specifying the criteria and the process to
be used in reviewing and selecting applications for funding.




                                                  2
U.S. Department of Commerce                                                                                                                             Audit Report ATL-10946-9-0001
Office of Inspector General                                                                                                                                               March 1999


The chart presented below depicts the process and controls for the solicitation, review, and
selection of financial assistance awards as set forth in DAO 203-26. The processes we reviewed
during our audit are color coded for this chart and the NTIA process chart located in Appendix I.


                                          Department of Commerce Financial Assistance Awards Process
  Congress




                                    LEGISLATIVE AUTHORITY &
                                    APPROPRIATIONS REQUIREMENTS




                                                                                                                                 PREAWARD SCREENING
  Department




                                                                                                                                 * Office of General Counsel Review        FINANCIAL
                                    POLICIES &
                                                                                                                                                                           ASSISTANCE
                                    PROCEDURES                                                                                   * Office of Inspector General Review      REVIEW BOARD
                                                                                                                                   -- Limited Background Check
                                                                                                                                   -- Credit Review
                                                                                                                                   -- Outstanding Audit Issues




                                                       SOLICITATION
                                                                              REVIEW
  Bureau/Program




                                                                                                      SELECTION                               PREAWARD SCREENING
                                    POLICIES &         Public announcement
                                    PROCEDURES         and notification of    * Independent Review                                            * Outstanding Accounts
                                                                                                      *   Quantitative Scores                                              SIGNED BY GRANT
                                                       financial assistance      Panel(s)             *   Public Policy Considerations          Receivable                 OFFICER
                                                       opportunities (e.g.,   * Evaluation Criteria   *   Recommend Action                    * Suspensions & Debarments   OR DESIGNATED
                                                       Federal Register,      * Numeric Ranking       *   Decision Fully Justified and        * Award Prepared Properly    OFFICIAL
                                                       Commerce Business                                  Documented
                                                       Daily, Internet Web
                                                       Sites)
  Financial Assistance Applicants




                                                                                                                                                                              AWARD
                                                       PROPOSAL




                                                                                                           3
U.S. Department of Commerce                                             Audit Report ATL-10946-9-0001
Office of Inspector General                                                               March 1999


                                    PURPOSE AND SCOPE

This audit was conducted as part of a comprehensive review of the Department of Commerce’s
discretionary funding programs initiated at the request of the Chairman of the Senate Commerce,
Science, and Transportation Committee. The Chairman requested that the Inspectors General of
the Departments of Commerce and Transportation and the National Science Foundation review
the discretionary funding programs of their respective agencies to assess the manner in which
discretionary funding decisions are made. More specifically, the Chairman requested that each IG
review and report on the criteria developed, either statutorily or administratively, to guide agency
officials in making discretionary spending decisions, and on the extent to which the criteria are
appropriately applied.

We are conducting our Department-wide review in two phases: a survey phase (completed) and
an individual program audit phase (ongoing). During the survey phase, we identified and
examined the body of laws, regulations, and other guidance applicable to the administration of
federal financial assistance programs. We also examined the authorizing legislation, provided by
Department officials, for each Commerce financial assistance program and classified each program
as either a “full discretion” program or a “limited discretion” program, based on the extent to
which the legislation limits the agency’s authority to independently determine the recipients and
funding levels of the awards made under the program. Finally, we examined fiscal year 1997
appropriations legislation to identify any legislatively mandated awards. No legislatively
mandated awards were found.

During the second phase of our review, we are conducting individual audits of the application
solicitation, review, and selection processes of each program we have classified as a “full
discretion” program, including NTIA’s TIIAP. We are evaluating the adequacy of each
program’s established award procedures and criteria for evaluating individual applications. For
those programs with procedures deemed to be adequate, we are ascertaining whether they were
followed in making awards in fiscal year 1997. For those programs with procedures considered
to be inadequate or lacking, we are reviewing how the fiscal year 1997 award decisions were
made. Finally, we are examining the legislatively mandated projects identified for each program
and determining their significance and impact on fiscal year 1997 award decisions. We plan to
issue individual reports, with any appropriate recommendations, on each program, followed by a
capping report summarizing the results of the individual audits and providing recommendations
for the Department and/or its bureaus.

On July 21, 1998, the Acting Inspector General and the Chief Financial Officer and Assistant
Secretary for Administration testified before the Senate Commerce, Science, and Transportation
Committee on the Department’s discretionary funding programs. The Acting IG reported on the
results of the preliminary, survey phase of the OIG’s review, and discussed some of the
preliminary observations from the individual program audits.



                                                 4
U.S. Department of Commerce                                           Audit Report ATL-10946-9-0001
Office of Inspector General                                                             March 1999


This performance audit focused on funding decisions made during fiscal year 1997 under TIIAP.
Specifically, we:

l      Reviewed the authorizing legislation, provided by Department officials, and information
       summarized in the CFDA to identify criteria for funding decisions.

l      Reviewed policies and procedures for soliciting and reviewing proposals and selecting
       recipients for funding (see Appendix I for flowchart of process). We also reviewed
       NTIA’s Internal Operating Procedures as they applied to the solicitation, review, and
       selection process and assessed whether they were in accordance with DAO 203-26,
       Department of Commerce Grants Administration and Office of Federal Assistance
       Financial Assistance Notice No. 17, Department of Commerce Guidelines for the
       Preparation of Federal Register Notices Announcing the Availability of Financial
       Assistance Funds -- Requests for Applications.

l      Compared NTIA’s procedures with its grant award practices for fiscal year 1997 to
       determine if the process contained adequate internal controls to provide for competitive,
       merit-based awards.

l      Examined pertinent documents in individual program award files to determine if
       departmental and NTIA policies and procedures were followed.

l      Interviewed NTIA program officials and personnel from the Department’s Office of
       Executive Assistance Management (OEAM) concerning NTIA’s solicitation, review, and
       selection procedures.

l      Examined fiscal year 1997 appropriations legislation to identify legislatively mandated
       projects for this program. None were found for this program.

We did not rely upon computer-based data supplied by NTIA and OEAM as a basis for our audit
findings and recommendations. Consequently, we did not conduct tests of either the reliability of
the data or the controls over the computer-based system that produced the data.

In February 1999, we issued a draft report to NTIA for review and comment. A copy of NTIA’s
response, excluding attachments, is included as Appendix II and is summarized on page 13 of this
report.

We performed the audit fieldwork at NTIA and OEAM in Washington, D.C., during April and
May 1998. We conducted the audit in accordance with generally accepted government auditing
standards, and under the authority of the Inspector General Act of 1978, as amended, and
Department Organization Order 10-13, dated May 22, 1980, as amended.



                                                5
U.S. Department of Commerce                                           Audit Report ATL-10946-9-0001
Office of Inspector General                                                             March 1999


                              FINDING AND RECOMMENDATION

We found that NTIA’s criteria, procedures, and practices for soliciting, reviewing, and selecting
TIIAP award recipients generally complied with statutory, departmental and NTIA requirements
and appeared designed to result in merit-based awards. In fact, NTIA’s efforts to solicit
applications for TIIAP awards for fiscal year 1997 exceeded the Department’s and its own
minimum requirements and generated a strong, nationwide response from multiple eligible
applicants. Each application received an independent, qualified review based on the written
evaluation criteria stated in the application notice. However, we found that there were no written
justifications for seven award decisions that deviated from the TIIAP program director’s
recommendations.

I.     TIIAP Used Merit-Based Evaluation Criteria

TIIAP officials implemented technical and public policy evaluation criteria that were consistent
with the objectives of the program and complied with statutory provisions for making awards.
The applicable criteria were published in the Federal Register, Part II, Volume 62, Number 17,
dated January 27, 1997. Based on our review, we concluded that the criteria, which are discussed
in the following sections, were adequate and resulted in a competitive merit-based selection
process for the fiscal year 1997.

II.    TIIAP Solicitation Process Obtained a Nationwide Response

NTIA’s TIIAP procedures and practices for soliciting applications for fiscal year 1997 awards
were sufficient to obtain a nationwide response from eligible applicants. NTIA’s widespread
solicitation of eligible applicants exceeded the Department’s and its own minimum requirements
and generated almost 900 responsive applications.

DAO 203-26, Section 4.02, lists required solicitation procedures for competitive grant programs.
These procedures are designed to ensure widespread public notification to the interested public.
Section 4.02 provides the following solicitation criteria, in part:

l      Annual Public Notice. To inform the interested public, each organization unit shall publish
       at least annually a notice in the Federal Register that includes basic information for each
       discretionary grant program.

l      Other Solicitations of Applications. Additional notice(s) in the Federal Register or other
       publications soliciting applications or preapplications must include information published
       in the annual public notice.

l      Minimum Notice. In order to provide the public reasonable notice, there must be a
       minimum of 30 days between the date of publication and the closing date for receipt of
       applications.

                                                6
U.S. Department of Commerce                                           Audit Report ATL-10946-9-0001
Office of Inspector General                                                             March 1999


NTIA’s Procedures for the Competitive Selection and Award of Grants through the
Telecommunications and Information Infrastructure Assistance Program, dated April 11, 1997,
require the agency to solicit TIIAP applications through an announcement in the Federal
Register. The announcement is to include all relevant information on how to apply for program
funds and the process for selecting grant awards. OEAM ensures that all required information is
included in the notice before NTIA officials submit the announcement for publication in the
Federal Register.

Although NTIA is only required to publish the program announcement in the Federal Register,
program officials expanded their solicitation efforts to include other media. NTIA placed the
solicitation notice on NTIA’s Internet web site and sent solicitation notices to over 18,000
potential applicants on its mailing list.

Employing these solicitation methods, NTIA received 924 applications requesting $354 million.
NTIA’s program staff accepted 876, or 95 percent, of these applications as complete and eligible
for review.

III.   TIIAP Provided a Competitive, Merit-Based Review of Applications

For the fiscal year 1997 review process, TIIAP’s established procedures and practices for
reviewing applications for awards were sufficient to provide a competitive, independent, and
qualified review for each application. Review panels used merit-based, technical and public policy
criteria that were consistent with the objectives of the program in evaluating the applications.
Knowledgeable reviewers from outside the TIIAP program office and NTIA provided an
independent perspective and evaluation of each applicant. NTIA used outside reviewers who had
demonstrated expertise in both programmatic and technological aspects of the applications to be
reviewed. The outside reviewers had qualified professional backgrounds related to the application
area they reviewed. The five application areas consisted of:
(1) community-wide networking; (2) education, culture, and lifelong learning; (3) health; (4)
public and community services; and (5) public safety.

DAO 203-26, Section 4.02h.1, sets forth the minimum requirements for the competitive review
process:

l      Applications are reviewed only when submitted in response to a notice in the Federal
       Register or other publication.

l      Applications should be treated fairly.

l      Applications should receive an independent, objective review by one or more review
       panels qualified to evaluate the applications.

l      Review panels consist of at least three persons and may include one or more individuals
       who are not employees of the federal government.


                                                7
U.S. Department of Commerce                                             Audit Report ATL-10946-9-0001
Office of Inspector General                                                               March 1999


l      Review panels should use selection criteria covered by the application notice.

l      Organization units should prepare a rank ordering of applications based solely on
       evaluations by the review panel.

l      Organization units should determine the order in which the applications will be selected
       for funding based on:

       (1)     any priorities or other program requirements published in the Federal Register that
               apply to the selection of applicants for new awards, and

       (2)     the rank order of applications established by the review panel on the basis of the
               selection criteria.

NTIA’s internal operating procedures also contain review panel requirements. Each review panel
is to consist of a minimum of three reviewers from outside NTIA selected by the program officers
and approved by the program director. The reviewers are to be selected based on their ability to
provide fair and objective recommendations. Each panel is to be facilitated by a member of the
program staff who does not score the applications but is responsible for ensuring a fair review of
applications. The reviewers are to document each application in the following manner:

l      The reviewers are to evaluate each application according to criteria listed in the Federal
       Register and each reviewer is to complete a score sheet documenting his/her evaluation;

l      The review panel will provide one set of written comments for each application; and

l      A lead reviewer from each review panel is to be chosen to prepare a written discussion of
       the panel’s comments on each application as they relate to criteria published in the Federal
       Register. The reviewers’ individual scores are to be averaged to create a single panel
       rating for each application.

TIIAP review panels used merit-based technical and public policy criteria that were consistent
with the objectives of the program in evaluating the applications. The criteria, which were
equally weighted, were published in the Federal Register, Part II, Volume 62, Number 17, dated
January 27, 1997. They were:

       (1)     Project Purpose. Each application will be rated on the purpose of the project and
               its potential contribution to our national understanding of how the National
               Information Infrastructure can be used to benefit the public.

       (2)     Project Feasibility. Each application will be rated on the overall feasibility of the
               proposed project and its plan of implementation.

                                                 8
U.S. Department of Commerce                                            Audit Report ATL-10946-9-0001
Office of Inspector General                                                              March 1999


       (3)     Community Involvement. Each application will be rated on the overall level of
               community involvement in the development of the project and the implementation
               of the proposed project.

       (4)     Reducing Disparities. Every TIIAP project should target underserved
               communities specifically and/or reach out to underserved groups within a broader
               community.

       (5)     Evaluation and Dissemination. Each proposal must include a plan for evaluating
               the project and a dissemination plan for sharing knowledge gained from it.

The Federal Register notice also listed the selection factors that the TIIAP Director would take
into account in recommending applications for funding to the Office of Telecommunications and
Information Applications (OTIA) Associate Administrator for approval and subsequently to the
Assistant Secretary for Communications and Information for selection. They were:

       (1)     The evaluations of the outside reviewers;

       (2)     The geographic distribution of the proposed grant awards;

       (3)     The variety of technologies and strategies employed by the proposed grant awards;

       (4)     The extent to which the proposed grant awards represent a reasonable distribution
               of funds across application areas;

       (5)     The promotion of access to and use of the information infrastructure by rural
               communities and other underserved groups;

       (6)     Avoidance of redundancy and conflicts with the initiatives of other federal
               agencies; and

       (7)     The availability of funds.

The Federal Register notice also provided the objective of the program, and stated that the extent
to which each application addressed this objective would be considered, along with the program
director’s recommendations, by the Assistant Secretary in making final selections. The objective
of TIIAP, as described in the Federal Register notice is “to promote the development and
widespread availability and use of advanced telecommunications and information technologies to
serve the public interest.”




                                                9
U.S. Department of Commerce                                             Audit Report ATL-10946-9-0001
Office of Inspector General                                                               March 1999


Each application must be scored on the full set of five equally weighted evaluation criteria. The
scoring for each of the five criteria is to range from zero (lowest) to five (highest). A score of
five for a particular criterion indicates an outstanding response; that is, that the applicant has
clearly and thoroughly addressed that particular criterion and has done so with exceptional
distinction. A score of three indicates an average or adequate attempt to address the particular
criterion. A score of zero indicates the application is completely unresponsive to the particular
criterion. Each application may receive up to 25 points.

After individual scoring of the applications by a review panel’s members, the review panel is to
meet as a group to average the individual scores and to discuss and prepare written comments for
each application. During discussions, the review panel is to come to a consensus recommendation
on each application’s suitability for funding. The panel selects either “recommended for funding”
or “not recommended for funding” for each application based on the reviewers’ scores and
whether the application clearly addresses the program’s objectives discussed above. The
recommendation decision is made by the review panel as a group. The program staff also asks the
reviewers to be consistent with their scores. In other words, they cannot recommend a project for
funding that has a lower average score than a project they do not recommend.

TIIAP’s program director stated that a panel’s recommendations on which applications to fund
serve two purposes: (1) to help determine a rough estimate of the number of high merit
applications the program has received (and therefore the appropriate funding level) and (2) to put
the reviewers' scores in perspective. In terms of the latter, the program staff examines the
scores and recommendations across all panels to see how the funding recommendations correlate
with the scores. Based on this analysis, the program staff determines the point values that
represent four rating categories: outstanding, good, fair, and poor.

In fiscal year 1997, NTIA used 113 independent outside reviewers from across the nation. The
members of the review panels were selected by TIIAP’s program officer and approved by the
TIIAP’s program director. NTIA placed the outside reviewers into 30 groups, each with
3 to 4 members, that were assigned to review panels. NTIA’s internal procedures require a
minimum of three outside members on each panel. The review panels also included a program
staff member who did not score the applications, but was to assist the reviewers with any
questions.

The review panels were assigned to 5 application areas: 8 panels for community-wide networking;
12 for education, culture, and lifelong learning; 3 for health; 4 for public and community services;
and 3 for public safety. This breakdown reflected the number of applications received for each
particular area.

The panels reviewed 876 applications, totaling $337.5 million, and recommended 169
applications, totaling $66 million, for funding. We found that the panels properly applied the
merit-based criteria to assess the applicants and documented their reviews of each application.


                                                 10
U.S. Department of Commerce                                            Audit Report ATL-10946-9-0001
Office of Inspector General                                                              March 1999


The program staff’s analysis of the panels’ scores indicated that 100 percent of the applications
scoring 20 or more points were recommended for funding; 79 and 69 percent of applications
scoring 19 points and 18 points, respectively, were recommended. They also noted that
40 percent of applications scoring 17 points were recommended for funding, but only 19 percent
scoring 16 were recommended. Based on that observation and the overall scoring distribution,
the cut-off for “outstanding” applications was set at a score of 21 and the cut-off for “good”
applications at 17. Applications receiving a score of 16 or below were ranked “fair.” However, it
should be noted that because each panel could draw the line differently, there were situations
where one panel recommended for funding all applications that scored 15 or higher (resulting in
a few "fair" projects being recommended) and another panel recommended for funding all
applications that scored 18 or higher (resulting in a few "good" projects not being recommended).

In fiscal year 1997, the TIIAP program director, in conjunction with the program staff, applied the
selection factors listed in the Federal Register notice to reduce the number of applications
recommended for funding from 169 to 53. The 53 applications totaled $21 million and included
38 outstanding, 14 good, and 1 fair application (see Table 1 below). The program director
provided written justification for his recommendations.

Table 1 - Scoring Breakdown for Applications, Recommendations, and Selections
                                                             Recommendations          Selections
                                              All
  Points              Ratings             Applications      Review       Program      Assistant
                                                            Panel        Director     Secretary
  21 - 25           Outstanding                 63             63           38            31
  17 - 20              Good                    119             87           14            20
  10 - 16               Fair                   534             19            1             4
   0 - 9                Poor                   160              0            0             0
 Total                                         876             169          53            55

The program director’s list of applications recommended for funding was presented to OTIA’s
Associate Administrator for review and approval. Upon receipt of the Associate Administrator’s
approval, the program director’s recommendations were presented to the Assistant Secretary as
the selecting official. The Assistant Secretary selected the applications to be negotiated, taking
into consideration the program director’s recommendations and the program objectives as stated
in the Federal Register notice. The negotiation process involves the program staff discussing
with potential applicants any differences that exist between the applicant’s original funding
request and what TIIAP proposes to fund, or, if necessary, to clarify items in the application.
Table 1 above summarizes the results of the application reviews by review panels, review panel
recommendations, program director recommendations and Assistant Secretary selections.


                                                11
U.S. Department of Commerce                                              Audit Report ATL-10946-9-0001
Office of Inspector General                                                                March 1999

IV.    TIIAP Selection Decisions that Deviated from Program Director’s
       Recommendations Were Not Adequately Documented

NTIA’s selection procedures and practices for TIIAP awards were sufficient to satisfy
departmental requirements. However, NTIA officials need to improve the written justifications
for selection decisions that deviate from recommendations made by TIIAP’s program director.
NTIA’s internal procedures give NTIA’s Administrator, who is also the Assistant Secretary for
Communications and Information, final award selection authority. During fiscal year 1997, the
Assistant Secretary added nine and deleted seven applications from the program director’s list of
applications recommended for funding.

According to an NTIA internal memorandum in the program files, the Assistant Secretary had
two concerns for the applications selected: (1) that no states are represented by more than three
awards and (2) that awards be made to states with exceptionally high concentrations of poverty,
low levels of educational attainment, and low population density. In addition, the Assistant
Secretary stated that he considered other factors, such as type of application technology, states
with multiple awards, and states that had received an award the previous year, when making his
selections.

The Assistant Secretary added nine applications, totaling more than $3.1 million, to the list to
satisfy the concerns mentioned above. Five of the nine applications were from the list of 169
recommended for funding by the review panels, with each receiving a good rating. Of the four
applications that the panel had not recommended for funding, one had received a good rating and
three had received a fair rating. None of the applications had been recommended for funding by
the program director.

The Assistant Secretary provided written justifications for each of the nine applications added to
the selection list. The nine applications agreed with the goals set by the Assistant Secretary to
make awards to those states with exceptionally high concentrations of poverty, low levels of
educational attainment, and low population density.

The Assistant Secretary’s decision to add nine applications resulted in four states plus the District
of Columbia receiving one award in fiscal year 1997. The other four selections represented the
second award to an organization in each of those four states.

In order to select the applicants added, the Assistant Secretary deleted seven applications, totaling
almost $3 million, from the program director’s list. All seven had been rated as outstanding and
recommended for funding by the review panels. It should be noted that deleting applications from
three states still left three awards for each of those states; however, three other states with deleted
applications received no fiscal year 1997 awards. One of the three states that did not receive a
fiscal year 1997 award also did not receive a fiscal year 1996 award.

There was no written justification for any of the seven deleted applications. The Assistant
Secretary could not provide any written documentation that explained how he applied deletion
factors to each application.

                                                  12
U.S. Department of Commerce                                             Audit Report ATL-10946-9-0001
Office of Inspector General                                                               March 1999

Although it is within the Assistant Secretary’s authority to make the final selection of awardees,
he should fully explain in writing award decisions that deviate from recommendations made by
TIIAP’s program director in accordance with DAO 203-26, Section 4.05b. Deviations from key
competitive processes, although sometimes appropriate for managerial or legislative requirements,
may compromise the competition for program funds. Requiring selecting officials to justify
deviations from reviewer recommendations promotes managerial accountability for award
decisions.

As a result of the Assistant Secretary’s action, a total of 55 applications were selected for funding
pending the outcome of negotiations. After negotiations, awards totaling $20.9 million were
made to these 55 applicants. Of the 55 applications, 51 had been recommended for funding by the
review panels that had rated 31 as outstanding, 20 as good, and 4 as fair (see Table 1 on page
11).

TIIAP awards were available to applicants in the 50 states and all U.S. territories. The 55 grants
were awarded to organizations in 38 states and the District of Columbia. No awards were issued
to applicants from 11 states and 4 territories; 1 state did not have any organization submit an
application.

V.     NTIA Response

NTIA concurred with our finding and recommendation. NTIA stated that it has already
implemented the recommendation, starting with the fiscal year 1998 grant competition. NTIA
requested that we revise our report to add colleges and universities, and state, local, and Indian
tribal governments to the list of organizations eligible to receive funding under TIIAP. NTIA also
requested that the report be revised to reflect changes to the award process implemented in fiscal
year 1998. In addition, NTIA requested that certain predecisional information be deleted from the
report. Finally, the agency suggested several minor changes to clarify certain aspects of the fiscal
year 1997 award process. We have included a copy of the response, excluding attachments, as
Appendix II.

VI.    OIG Comments

We commend NTIA for implementation of the draft report’s recommendation. We did not
modify the final report based on the fiscal year 1998 changes by the agency because this report
covers the fiscal year 1997 events. However, we modified the report to include additional
information on the fiscal year 1997 award process and the organizations eligible for TIIAP
funding. We also deleted certain predecisional information that we believe did not detract from
our analysis of the award process and the related recommendation. Finally, we made other
editorial changes we considered appropriate.

VII.   Recommendation

We recommend that the Assistant Secretary for Communications and Information ensure that the
bases for making awards that deviate from the program director’s recommendations are
adequately documented.

                                                 13
U.S. Department of Commerce                                                                         Audit Report ATL-10946-9-0001
Office of Inspector General                                                                                           March 1999

                                                                                                                           APPENDIX I
                                                                                                                             Page 1 of 2

                            NTIA FISCAL YEAR 1997 PROCEDURES FOR
                       SOLICITATION, REVIEW, AND SELECTION OF AWARDS




  NTIA Publishes Solicitation Notice                                                                     A
   -- in Federal Register
   -- on NTIA Internet Web Site
   -- to Program Mailing List.



                                                                                 Program Director ranks applications

               Application                                                        -- Fund
                                                                                  -- Not recommended for funding

                                                                                 and presents recommendations to Associate
                                                                                 Administrator based on Selection Factors:

                                                                                  (1) Outside reviewer evaluations
             Is application                                                       (2) Geographic distributions
        complete and timely and is          Application rejected                  (3) Variety of technologies and strategies
           applicant eligible?                                                    (4) Distribution of funds across application areas
                                                                                  (5) Access and use by rural communities and
                                                                                      other under-served groups
                                                                                  (6) Redundancy and conflicts with other Federal
                                                                                      agencies' initiatives
                                                                                  (7) Availability of funds

   Application evaluated by outside
   review panel using criteria:
    (1) Project Purpose
    (2) Project Feasibility
    (3) Community Involvement                                                               Associate Administrator
    (4) Reducing Disparities                                                                approves recommendations
    (5) Evaluation and Dissemination                                                        and presents list to
                                                                                            Assistant Secretary




                     A
                                                                             Assistant Secretary selects applications that the program
                                                                             staff will negotiate with

                                                                             Considers whether recommendations satisfy program's
                                                                             objective




                                                                                                     To 1 page 2




        Solicitation Process           Review Process              Selection Process
U.S. Department of Commerce                                   Audit Report ATL-10946-9-0001
Office of Inspector General                                                     March 1999

                                                                              Appendix I
                                                                              Page 2 of 2




                                      From 1 page
                                           1




                              Program staff negotiates
                              with applicants




                              Program director prepares
                              recommendation list for final
                              awards




                              Recommendation list sent to
                              Associate Administrator for
                              approval




                              Assistant Secretary makes
                                     final selection




                                 Sent to Department's
                                 OEAM and Office of
                                 General Counsel for
                                       approval
